                                                                                Office Of Inspector General
                                                                                Office Of Audit Services
        DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                Region II
                                             September 21,2009                  Jacob Javits Federal Building
                                                                                26 Federal Plaza - Room 3900
                                                                                New York, NY 10278

Report Number: A-02-08-01022

Mr. Robert Shapiro
Senior Vice President and Chief Financial Officer
North Shore-Long Island Jewish Health System
145 Community Drive
Great Neck, New York 11021

Dear Mr. Shapiro:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Review of Medicare Credit Balances at North Shore
University Hospital." We will forward a copy of this report to the HHS action official noted
below.

Section 8L of the Inspector General Act, 5 U.S.c. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-08-01022 in all correspondence.

                                             Sincerely,


                                            rP'           Etkt
                                             James P. Edert
                                             Regional Inspector General
                                               for Audit Services

Enclosure

HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF MEDICARE CREDIT
  BALANCES AT NORTH SHORE
    UNIVERSITY HOSPITAL




                    Daniel R. Levinson
                     Inspector General

                      September 2009
                       A·02·0S·01022
                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission ofthe Office ofInspector General (OIG). as mandated by Public Law 95-452. as
amended. is to protect the integrity ofthe Department of Health and Human Services (HHS)
programs. as well as the health and welfare of beneficiaries served by those programs. Tbis
statutory mission is carried out through a nationwide network of audits. investigations. and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS. either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste. abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
conceming the anti-kickback statute and other OIG enforcement authorities.
                             Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for persons aged 65 and over and those who are disabled or have permanent
kidney disease. Section 1866(a)(l)(c) of the Act requires participating providers to furnish
information to the Centers for Medicare & Medicaid Services (CMS), which administers the
program, about payments made to them and to refund any payments incorrectly paid including
credit balances.

A credit balance is an improper or excess payment made to a provider as a result of patient
billing or claims processing errors. Credit balances generally occur when a provider is paid twice
for the same service either by Medicare or by Medicare and another insurer; paid for services
planned but not performed for covered services; overpaid because of errors made in calculating
beneficiary deductible and/or coinsurance amounts; or a hospital that bills and is paid for
outpatient services included in a beneficiary's inpatient claim.

North Shore University Hospital (the hospital) is a multi-care, 731-bed hospital in Manhasset,
New York. The hospital is part of the North Shore-Long Island Jewish Health system of 14
medical facilities. As of December 31,2008, the hospital's accounting records showed 99 credit
balances totaling $405,177 in its accounting records.

OBJECTIVE

Our objective was to determine whether Medicare credit balances recorded in the hospital's
accounting records as of December 31, 2008, represented overpayments that the hospital should
have refunded to the Medicare program.

SUMMARY OF RESULTS

The hospital refunded Medicare credit balances in accordance with Federal requirements. Our
review disclosed that of the 99 credit balances, totaling $405,177, recorded in the hospital's
accounting records as of December 31,2008,36 were Medicare overpayments due to the Federal
Government. All 36 Medicare overpayments, totaling $87,162, were refunded to Medicare in
accordance with Federal requirements. We are not submitting recommendations to the hospital.
                      TABLE OF CONTENTS



INTRODUCTION                              1

    BACKGROUND                            1

    OBJECTIVE, SCOPE AND METHODOLOGY      1
         Objective                        1
         Scope                            1
         Methodology                      2

RESULTS OF REVIEW                         .3




                              11
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for persons aged 65 and over and those who are disabled or have permanent
kidney disease. Section 1866(a)(l)(c) of the Act requires participating providers to furnish
information to the Centers for Medicare & Medicaid Services (CMS), which administers the
program, about payments made to them and to refund any payments incorrectly paid including
credit balances.

A credit balance is an improper or excess payment made to a provider as a result of patient
billing or claims processing errors. Credit balances generally occur when a provider is paid twice
for the same service either by Medicare or by Medicare and another insurer; paid for services
planned but not performed for covered services; overpaid because of errors made in calculating
beneficiary deductible and/or coinsurance amounts; or a hospital that bills and is paid for
outpatient services included in a beneficiary's inpatient claim.

CMS requires Medicare providers to submit a completed Medicare Credit Balance Report,
Form CMS-838 within 30 days after the close of the calendar quarter, and include all Medicare
credit balances shown in the providers' accounting records as of the last day of the reporting
quarter. Providers must pay all amounts owed Medicare at the time the credit balance report is
submitted. As an exception, pursuant to 42 CFR 489.20(h), providers are required to refund to
Medicare within 60 days any payment for the same services from Medicare and another payer
that is primary to Medicare.

North Shore University Hospital (the hospital) is a multi-care, 731-bed hospital in Manhasset,
New York. The hospital is part of the North Shore-Long Island Jewish Health system of 14
medical facilities. As of December 31,2008, the hospital recorded 99 credit balances totaling
$405,177 in its accounting records.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare credit balances recorded in the hospital's
accounting records as of December 31, 2008, represented overpayments that the hospital should
have refunded to the Medicare program.

Scope

We reviewed Medicare inpatient and outpatient credit balances recorded in the hospital's
accounting records as of December 31, 2008. We did not review the hospital's overall internal
control structure. Rather, we limited our review of internal controls to obtaining an
understanding of the hospital's accounting for and reimbursing Medicare for overpayments.




                                                1
We perfonned our fieldwork from March through July 2009 at North Shore-Long Island Jewish
Health System's administrative offices in Westbury, New York.

Methodology

To accomplish our objectives, we:

    •   reviewed applicable laws, regulations, and guidelines;

    •   held discussions with hospital officials to obtain an understanding of the hospital's
        system for accounting for Medicare credit balances;

    •   obtained infonnation from the Medicare administrative contractor regarding credit
        balances reported by the hospital;

    •   reconciled the hospital's Medicare credit balances for the period ending December 31,
        2008, to those reported to the Medicare administrative contractor;

    •   reconciled Medicare's accounts receivable totals to the hospital's financial statements;

    •   identified all 99 Medicare credit balances 1 recorded by the hospital in its accounting
        records;

    •   reviewed supporting documentation for each of the 99 credit balances, including patient
        admission fonns, Medicare remittance advices, patient accounts receivable details, and
        other hospital records related to the credit balances to detennine whether the amounts
        recorded on the hospital's books represented actual overpayments due to the Federal
        Government; and

    •   detennined whether each of the credit balance amounts that represented Medicare
        overpayments due the Federal Government were refunded in accordance with Federal
        requirements.

We conducted this perfonnance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perfonn the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




'The 99 credit balances comprised 53 inpatient balances, totaling $300,711, and 46 outpatient balances, totaling
$104,466.


                                                         2
                                 RESULTS OF REVIEW

The hospital refunded Medicare credit balances in accordance with Federal requirements. Our
review disclosed that of the 99 credit balance amounts, totaling $405,177, recorded in the
hospital's accounting records as of December 31,2008,36 were Medicare overpayments due to
the Federal Government. All 36 Medicare overpayments, totaling $87,162, were properly
refunded to Medicare in accordance with Federal requirements. We are not submitting
recommendations to the hospital.




                                             3
